ctj-

FILED
FE3 22 2020

In The

Supreme Court of the United States
CHRIS JAYE,
Petitions,
v.
THE UNITED STATES
Respondents.

On Petition for a Writ of Certiorari
To the US Court of Appeals for the Federal Circuit
2019-1458

PETITION FOR A WRIT OF CERTIORARI
Chris Jaye
Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews. com

RECEIVE!}
MAY -6 202P
l

i

QUESTIONS PRESENTED FOR REVIEW
1. Has the US Court of Federal Claims and US Court
of Appeals for the Federal Circuit acting in
opposition to controlling law (.Erickson v. Pardus,
Johnson v. City of Shelby) by implementing its own
pleading standard different from other circuits?
2. Does a federal judge have the right to impose

his/her own will and wants into a citizen’s
complaint to alter the facts alleged as a basis for
dismissal? Can a federal judge impose presumed
limits on the jurisdiction of a federal court to
deprive a citizen the right to petition her own
government (First Amendment.)?
3. What remedies exist in the law when lies are not

corrected and not addressed in the record? What
remedies exist in the law when a judge (protected
by judicial immunity) illegally dismisses a valid
case? How does a citizen remedy this wrong and
deprivation of a right (First Amendment) caused by
the lies of a judge?

ii

TABLE OF CONTENTS
Questions Presented for Review

1

Table of Contents

n

List of Parties

m

Opinions and Orders

m

Jurisdiction

in

Constitution Provisions Involved

m

Petition

1-15
APPENDIX

Opinion and Order, August 6, 2019

Ap 1-10

Judgment

Ap 11

Denial of Rehearing

Ap 12-13

Order, August 24, 2018 (USC of FC)

Ap 14-16

Order, December 21, 2018 (USC of FC)

Ap 17-22

TABLE OF CITATIONS
Marbury v. Madison - Supreme Court.
Erickson v. Pardus - Supreme Court 2007
Johnson v. City of Shelby - Supreme Court 2014.
10th Circuit 1991

Ill

STATUTES AND RULES
28 U.S. Code § 1654
RCPC 1, 8, 12 and 60

LIST OF PARTIES
Chris Jaye,
Petitioner
The United States,
Respondents.
OPINIONS BELOW
The judgment and decision of the US Court of Appeals for
the Federal Circuit was entered on August 6, 2019. It is
reproduced in Appendix as Ap 1-10 and Ap 11. Petition
for a rehearing was denied on October 3, 2019.
It is reproduced in Appendix Ap 12-13.

JURISDICTION
The jurisdiction of this Court is invoked
per 28 U.S. Code § 1254.

CONSTITUTIONAL PROVISIONS INVOLVED
US Constitution, First Amendment, Fourteenth
Amendment, Fifth Amendment, and Seventh Amendment.

1

BRIEF FACTUAL BACKGROUND
This is my TENTH petition to this Court since
2015. Seven have been denied. Two others were
rejected by this court’s staff illegally and
improperly. Accessing the court (First
Amendment) which is a right has become an
impossibility because of the clever, illegal and
lawless tactics of lazy, activists, prejudicial judges
who think they are above hearing the claims and
cases of the deplorable masses.
We, the people, have a RIGHT to access our
courts. But federal judges (protected by this
Court’s gift of immunity which gives judges a free
pass to obstruct justice, lie, rig cases and deprive
citizens’ rights without accountability) have relied
on their slick lawyer-style skills and lies in their
so-called “orders” to keep us from our courts.
This routine has happened time and time again...
as this Court sits by and does nothing. No judge
is ever held to account for lying in their rulings
which ALWAYS results in the loss to a right of a
citizen (First Amendment) at the hands of rogue,
lawless, insulting government employees (federal
judges).

2

DEPRIVATION OF RIGHTS
Congress has authorized the rules of court which
must be upheld by federal judges. The LAW and
the RULES are not in a judge’s discretion to
ignore. However, it has become beyond routine of
unaccountable federal judges to depart from the
rules and law to render decisions they want for
whom they want - and not as the law dictates.
Endless case law was provided as to the liberal
pleading standard to prevent this illegal dismissal
(yet another one in a series), but it again was not
applied. If it were, I would not be here now.
In every court where I hhve been tossed out
illegally and denied all rights to any remedies in
the law by rogue, lawless judges, the law was
clear and known. But then it was all ignored.
The same routine has happened again now in this
case.
Relying on their own form of prejudicial justice
to kill off my case, these judges (like many others)
have simply done what they wanted - but not
what was required of them. And yet again, it has
been done in complete violation of this Court’s
controlling law and the RULES APPROVED BY
CONGRESS.

3

The sad truth is that elitist, activist, politicallymotivated, contemptuous judges do not want the
average citizen in their own courts. And they
write orders replete with lies to ensure they are
never allowed access. Without any concern to the
rights of the people or respect for their own oaths,
they waste the people’s time, money and taxes to
ensure access is deprived while forcing costly
appeals to be taken. Judges can do anything to
deprive, delay and oppress justice. But because of
you, the US Supreme Court - they are never held
to account.
It is due to the gift of judicial immunity given to
judges (and their staff) by this Court (and not
authorized or wanted by the people) that judges
know they will suffer no loss or cost for rigging
cases as they have done with all of mine.
As is beyond obvious, the Deep State is embedded
in the courts; with the very few elite deciding who
they think worthy of entry into their courts.
The cost to me (the citizen) has been great. The
cost to the elitist, lying judges has been nothing.
I am the one who has suffered by their lies... but
they do not miss a step. They continue to get
their salaries, pensions, health care, etc. And

4
they get all these benefits while failing to do what
they were hired to do, doing the absolute opposite
of what they have been hired to do and
obstructing justice by their lies. And yet all of
this illegality is what you, the US Supreme Court,
have declared are to be given a pass via your
invention of judicial immunity. In your
brilliance and understanding of the Constitution,
this is supposed to be equal justice under the law?
If you open your eyes, you will come to realize
that the people have little to no faith in judges.
Without a doubt, it is just a matter of time before
good people tell you where you can put your lies
you deem orders and say “to hell with the courts!”
The day is coming. And you, US Supreme Court
Justice, will only have yourselves to blame for
failing to remedy these wrongs that have been
known to you for decades.
Now go ahead and do what you do best at your
discretion: deny this petition. And by doing so,
you can protect, shield and defend the lies of your
buddies (other judges). As we know from case
law, rulings involving judges are only heard in
this Court when you want to protect a judge — and
expand your gift of immunity. Mireles v. Waco
(1991)

5
What a nice little power-grab racket you (the
unelected) have going in the US Supreme Court...

ILLEGAL DISMISSAL: FACTS and LAW
A. No Right to Dismiss
FACT: I filed a suit, paid a fee and provided all
proper paperwork (with the correct mailing
address!. In my complaint, I stated the
jurisdiction of the court by statute and named the
United States as the defendant. I had (and still
have) standing.
The US Court of Federal Claims had jurisdiction.
Judge Loren Smith bed in saying it did not.
B. Jurisdiction Existed
FACT: I alleged a constitutional issue, an implied
contract and a TAKINGS claims. All of these
were properly brought to the court with the
proper jurisdiction. Although words from my
complaint were cherry-picked and edited to find a
reason to dismiss (a typical routine of corrupt
judges), the circuit judges clearly noted that I
asserted that the “United States acted a part in
an unlawful taking scheme perpetrated by the
State of New Jersey.” (Ap 2, see also Ap 10)

6

Although there were many other clear claims
against the United States that were raised (and
not mentioned in these fraudulent orders), this
alone sufficed to prevent a sua sponte dismissal
for lack of jurisdiction. (Apl4-16) There was a
TAKINGS claim against the United States. The
US Court of Federal Claims had jurisdiction on
the FACE of the complaint. End of story.
C. Allegations Required to Be Taken as Fact
FACT: Controlling law is clear that all
allegations were required to be taken as fact.
There was no right by any judge to do anything
but accept mv allegations as fact. And this was
known. “ In deciding whether there is subject
matter jurisdiction, “the allegations stated in the
complaint are taken as true and jurisdiction is
decided on the face of the pleadings.” Folden, 379
F. 3 d. at 1354.”” Ap 4.
But then the bars (district and circuit judges)
revised, rewrote and reinterpreted my pleading to
find a way (by any means necessary) to kill this
case. This they cannot do, but this is what is done
every day in every court throughout the land by
elitist judges who seek to prevent citizens from
accessing their own courts.

7

D. Illegally Dismissed for Failing to State a
Claims
FACT: Both Judge Smith (district) and the
circuit judges failed to abide by known,
controlling law. Judges did not accept my
allegations as fact and even barred me from the
court due to a lack of “evidentiary support.” (Ap
22). Evidence was not entered nor could it have
been at this early stage.
Beyond that idiocy, they had no right to delve
beyond that which was alleged by me and
required to be taken as fact.
Although this Court has made this known ad
nauseum, Judge Loren Smith chose to act
corruptly, go rogue and sua sponte dismiss this
case on grounds that there were no claims worthy
to be heard. This is a failure to state a claim
decision, not a jurisdictional ruling. To
further his scheme to dismiss, he added
“frivolous” as a basis in his sua sponte revised
decision (Ap 22) as if such a determination could
even be made at the pleading stage.
At all times, he violated his limited authority at
the pleading stage and his role as a judge. In fact,

8

he did not act as a judge, but rather as DEFENSE
COUNSEL. And this is not his job.
E. No Right to Act as Defense Counsel
FACT: No judge ever had the power to sua sponte
dismiss a claim that alleged fully, completely and clearly
claims against the United States. No circuit judge
reviewing the sua sponte dismissal (Ap 14-16) had any
right to affirm this dismissal for the reasons asserted.
The United States was the defendant. They had the
obligation to mount a defense - not Judge Loren Smith
nor his cohorts.
F. No Right to Revise My Complaint
FACT: Judge Loren Smith imposed his views onto my
claims. “[Plaintiffs complaint is, in essence, an appeal.”
(Ap 15)
I never said this. I never alleged this. This is not in my
complaint. I never claimed this. The JUDGE said this.
And the judge (Judge Loren Smith) inserted his feelings
into my FACTS.
I do not need some corrupt, activist, lying judge revising
my valid complaint. I know what I said. And so does
Judge Loren Smith. My complaint as I wrote it was all
that was required to be relied upon. Nothing else.

9
G. No Right to Restrict the Jurisdiction of the United
States Court of Federal Claims
FACT: Judge Loren Smith revised the role of the US
Court of Federal Claims. “This Court’s authority to hear
cases is primarily set forth by the Tucker Act...” (Ap 14)
“Primarily” does not mean only.
Since Judge Loren Smith chose not to consider the other
aspects which would give rise to jurisdiction, he
dismissed my case illegally for the reasons that fit his
purpose. And as evidenced by his fraudulent orders,
Judge Loren Smith chose to ignore my pleadings as to
constitutional issues not sounding in tort when he
killed this case.
Avoidance is not adjudication.
H. Circuit Court Had No Jurisdiction
FACT: Judge Loren Smith did not declare the ruling as
final. Judge Loren Smith did not give me the right to
amend as is required. Judge Loren Smith ignored my
motion to supplement my pleadings and my
constitutionality issues raised, briefed and brought to a
court with the proper jurisdiction. (Ap 17-22)
The brilliant, “honorable” judges of the circuit court had
a duty to remand this non-final order. All matters were
not final. It was not declared final. And the
constitutional issues (First Amendment, petitioning of

10

my government) were not addressed in a court that had
jurisdiction to hear these issues.
Judge Loren Smith (in his illegality) used the routine
tactic of avoidance of other claims to ensure the death of
my case. This was not corrected by the circuit judged,
but furthered by the circuit judges who seized control
over that which should have been remanded.
I. Due Process Violations and Lies by Judges
Judge Loren Smith knew from my pleadings that I was
NOT SERVED at the address on record given. (Ap 1722) And he lied about it. “”[S]he did not receive notice
of the Court’s [August 24, 2018] Opinion and Order. . .
because plaintiffs incorrect address was given to the
Clerk’s Office.” (Ap 17) This is a total he. And the
record proves this to be a he.
In asserting this he to ensure the case never came back
to life by the vacating that was due via R. 60, he then
further hed by asserting that there were no “substantial
rights” impacted (Ap 18) which was regurgitated by the
circuit judges. Notice is a substantial right.
The fundamental right to notice and the process that
fohows (such as the right to file a motion for
reconsideration) were deprived. And these were
substantial rights. But alas, the purpose of federal
judges is to kill cases brought by the “deplorables”... and
do so by any means necessary.

11

As it stands, due process that would be given to any
other litigant similarly situated was not provided nor
remedied by the rules once again.
J. No Bight to Presume That Which Is Not Pled
FACT: I filed no claim sounding in tort. Ever.
Anywhere.
Repeatedly, the presumption bv the “honorable” judges
to deflect the attention away from my factual allegations
was made in the orders that such was done. It was not.
My complaint (the one ignored and reinterpreted by
judges) specifically asserted the jurisdiction of the court
as to the claims I did bring - and none were torts.

LAWLESS COURTS
Despite all your grandiose words on paper, you
hold no judge to account who fails to do as you
have directed or as Congress put into law.
(Erickson v. Pardus as an example.) Instead, you
have implemented a scheme to shield them from
account when caught in lies. And the lies of
judges are causing the deprivation of rights which
this court cannot countenance.
As the incredible statistics of illegal dismissals of
valid cases prove, judges do not want a citizens to

12
access their own courts. This is especially true as
it pertains to pro se litigants and in cases
involving those judges truly serve; other judges,
lawyers and other fellow government actors.
By your creativity (without the approval of the
people), you have abused and misused your
authority to give protections to some (government
employees) at the cost of constitutional rights
to others. The undisputed result of this scheme
(weaponizing the courts) by YOU is always the
same: the citizen loses everything while the
corrupt judge (government actor) suffers nothing.
If this is an absurd notion, then answer me this:
When was the last time a judge was held to
account for lying in a ruling? Rigging a case?
Dismissing a case illegally? Referred for
impeachment? What referrals for arrests have
been made by you to the US Department of
Justice for obstruction of justice when a judge has
illegally dismissed a citizen’s case? Violated their
right to access their own court? Proclaiming to
act as judges, but instead acted as defense counsel
for some over others?
In reverse, I can point to a string of rulings by
corrupt, lawless judges that have deprived me of a

13
court, rights and remedies in the law -- with my
property still stolen from me. Despite all the laws
and your words, I have never made it past the
pleading stage. This has been deliberate. This is
case-rigging.
So exactly where does one turn when judges act
corruptly? How does one get remedies in the law
(put in place by CONGRESS or as the
Constitution dictates) when those in the Judicial
Branch are the ones breaking the laws? Lying?
And with judicial immunity being an absolute gift
given by YOU (and not the people), what rulings
can judges not make? What can judges not order
be done? Seized? Taken? Corruptly and
maliciously? By the lies like that which are
replete in the orders in this case and appeal?
Exactly, where are the checks and balance over
the Judiciary as it pertains to this gift given unto
your own? 42 USC §1983-1988 dearly is
eviscerated by you as well via judicial immunity.
So what are our rights to prevent rogue judges
from barring the people from their own courts?
Moreover, from what laws can you (judges and
justices) not exempt yourself? What can you not

14
do in your capacity as a judge if everything you do
in such a capacity is immune by your
determinations? And exactly how is there equal
justice under the law when those doling out the
law (judges and justices) have exempted
themselves from the law? Who the hell do you
think you are?
CONCLUSION
A he is a he is a he. Lies by your precious judges
cannot stand as fact and law. There needs to be a
remedy. Lies need to be remedied.
Without a doubt, the Founding Fathers did not
authorize judicial immunity nor did they give
judges the power to make rulings on hes. And
since judges have no right to he, a judgment
based on hes can carry not authority in the law.
But then again, what choice do I have to remedy
an unlawful ruling due to this “Catch-22” you
have imposed upon the people?
By your doing, you have seen to it that the citizen
is simply screwed by judges (coming and going)
thanks to your creation of common law which you
are not empowered to make. This is wrong and
unconstitutional.

15
Despite your usurpation of power over the will of
the people, judges do not serve themselves. And
judges are not free to simply rule by lies. But
where is the remedy? Where there is a right,
there is a remedy. Or is this just another
meaningless US Supreme Court decision?
Now how do you plan on giving a remedy to this
mess? These lies? This last act of case-rigging by
your beloved fellow judges? No need to answer. I
know. You will do nothing:
“Petition is Denied.” PS: Enjoy being screwed out
of another court yet again and having no way to
remedy the theft of your property caused by lies
resulting in illegal takings and via void judicial
decrees which we will not remedy... with love, the
“Honorable” Justices of the US Supreme Court.
God bless America.
And long live the Second Amendment.
Our Founding Fathers knew what they were
doing... and long before your illegal judicial
immunity came into creation!
s/ Chris Ann Jaye
Chris Ann Jaye
Pro se, Petitioner

